No. 20-74

 

 

IN THE

Supreme Court of the United States

UNITED STATES OF AMERICA, ET AL.,
PETITIONERS,

v.

IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

MEMORANDUM IN RESPONSE FOR
RESPONDENT VIRNETX INC.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,242 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2020.

 

Colin Casey Ho}
Wilson-Epes Printing Co., Inc.
